CERTIFICATE OF WORD COUNT
Case No.
Case Name:
Hirsh Singh, pro se., v. Philip D. Murphy et al.,

Document Title:
PETITION FOR A WRIT OF CERTIORARI

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Supplemental Brief of Respondents Robert Ingersoll and Curt Freed,
which was prepared using Century Schoolbook 12-point typeface, contains 5,404
words, excluding the parts of the document that are exempted by Rule 33.1(d). This
certificate was prepared in reliance on the word-count function of the wordprocessing
system (Microsoft Word) used to prepare the document.
I declare under penalty of perjury that the foregoing is true and correct.
DATED this 29th day of October 2020.

/s/ Hirsh V. Singh

Hirsh Singh,
Filing as Pro Se
P.O. Box 407 Linwood, NJ 08221
9 Wexford Lane Linwood, NJ 08221
(609)335-5289
info@hirshsingh.com

